CERTIFICATE OF SERVICE

I, Garth Dano, hereby certify that the foregoing
Motion for Extension in Chad Bennett v. State of
Washington, was mailed by first-class mail and sent
electronically by email to the following parties listed below,
this 18 day of March 2021.

Lila J. Silverstein

Counsel of Record
Washington Appellate Project
1511 Third Avenue, Suite 610
Seattle WA 98101
lila@washapp.org
wapofficemail@washapp.org

Counsel for Petitioner
All parties required to be served have been served.
I further declare under penalty of perjury that the

foregoing is true and correct. This Certificate is executed on
March 18, 2021.

 

Ephrata WA 98823
(509)754-2011
gdano@grantcountywa.gov
Counsel for Respondent
